No. 19-963
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------HENRY SCHEIN, INC.,
Petitioner,
v.
ARCHER AND WHITE SALES, INC.,
Respondent.
---------------------------------♦--------------------------------On Writ Of Certiorari To The
United States Court Of Appeals
For The Fifth Circuit
---------------------------------♦--------------------------------BRIEF OF ARBITRATORS, ARBITRATION
PRACTITIONERS, AND ARBITRATION SCHOLARS
AS AMICI CURIAE
IN SUPPORT OF RESPONDENT
---------------------------------♦--------------------------------RICHARD D. FAULKNER
IMRE STEPHEN SZALAI
12770 Coit Road, Suite 720
Judge John D. Wessel
Dallas, TX 75251
Distinguished Professor
(972) 427-1500
of Social Justice
rfaulkner@faulkneradrlaw.com Counsel of Record
LOYOLA UNIVERSITY
PHILIP J. LOREE JR.
NEW ORLEANS
THE LOREE LAW FIRM
COLLEGE OF LAW
800 Third Avenue, 28th Floor
7214 St. Charles Avenue,
New York, NY 10022
Box 901
(516) 627-1720
New Orleans, LA 70118
PJL1@LoreeLawFirm.com
(504) 861-5589
iszalai@loyno.edu
Counsel for Amici Curiae
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES .................................

iii

INTEREST OF AMICI CURIAE .........................

1

SUMMARY OF ARGUMENT ..............................

1

ARGUMENT ........................................................

3

I.

II.

III.

The Court Should Affirm The Fifth Circuit’s
Decision Because The Parties Never Entered Into Any Agreement, And Without An
Agreement, It Is Impossible To Satisfy The
Clear And Unmistakable Delegation Standard ..............................................................

3

The Contract’s Reference To The AAA, Without Any Specific Selection Or Incorporation
Of Particular AAA Rules, Cannot Satisfy
The Clear And Unmistakable Standard.......

7

The Purported Arbitration Agreement’s
Text Does Not Clearly And Unmistakably
Incorporate By Reference A Delegation Provision .......................................................... 11
A. The Clear And Unmistakable Delegation Rule Requires The Court To Determine Independently, And Without
Regard To State Law, Whether The Parties Clearly And Unmistakably Consented To Arbitrate Arbitrability .......... 11
B. The Text Of The Purported Arbitration
Agreement Does Not Clearly And Unmistakably Incorporate By Reference A
Delegation Agreement .......................... 13

ii
TABLE OF CONTENTS—Continued
Page
IV.

The Changing Nature Of The AAA Rules
Prevents A Clear And Unmistakable Delegation In This Case..................................... 18

V.

Because Of Concerns About Impartiality,
Conflicts Of Interest, And The Constitutional Right To A Jury Trial, Mere Incorporation By Reference Of Outside Arbitration
Rules Cannot Satisfy The Heightened
Standard Of Clear And Unmistakable Evidence .......................................................... 20
A. Concerns About Impartiality And Conflicts Of Interest .................................. 21
B. Constitutional Concerns About A Jury
Trial ..................................................... 25

VI.

The Court Should Impose A Heightened
Clear And Unmistakable Standard In
Cases Where The Parties Allegedly Incorporate By Reference A Delegation Provision
Contained In Provider Rules ...................... 27

VII.

Reversing The Fifth Circuit And Finding A
Delegation Here May Negatively Impact
Millions Of Unsophisticated Business Owners, Consumers, And Workers ..................... 30

CONCLUSION..................................................... 32
APPENDIX
List of Amici Curiae ............................................ App. 1

iii
TABLE OF AUTHORITIES
Page
CASES
Allstate Ins. Co. v. Toll Bros., Inc., 171 F. Supp.
3d 417 (E.D. Pa. 2016) .............................................31
Archer & White Sales, Inc. v. Henry Schein, Inc.,
935 F.3d 274 (5th Cir. 2019) .............................. 14, 17
First Options of Chicago, Inc. v. Kaplan, 514 U.S.
938 (1995) ........................................................ passim
Gibson v. Berryhill, 411 U.S. 564 (1973) ....................23
Gilmer v. Interstate/Johnson Lane Corp., 500
U.S. 20 (1991) ..........................................................25
Henry Schein, Inc. v. Archer & White Sales, Inc.,
139 S. Ct. 524 (2019) ..................................... 3, 25, 28
Howsam v. Dean Witter Reynolds, Inc., 537 U.S.
79 (2002) ............................................................ 11, 12
Kindred Nursing Centers Ltd. P’ship v. Clark,
137 S. Ct. 1421 (2017) .............................................25
Lamps Plus, Inc. v. Varela, 139 S. Ct. 1407
(2019) ................................................................. 8, 11, 12
Mastrobuono v. Shearson Lehman Hutton, Inc.,
514 U.S. 52 (1995) ...................................................16
Monfared v. St. Luke’s Univ. Health Network,
2016 WL 6525411 (E.D. Pa. Nov. 2, 2016) ..............24
Moses H. Cone Hosp. v. Mercury Constr. Corp.,
460 U.S. 1 (1983) .....................................................16
Rent-A-Center, West, Inc. v. Jackson, 561 U.S. 63
(2010) .......................................................................27

iv
TABLE OF AUTHORITIES—Continued
Page
Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp., 559
U.S. 662 (2010) ..........................................................3
Tumey v. Ohio, 273 U.S. 510 (1927) ................ 22, 23, 24
United Steelworkers of Am. v. Warrior & Gulf
Nav. Co., 363 U.S. 574 (1960) ..................................33
Volt Info. Scis., Inc. v. Bd. of Trustees of Leland
Stanford Junior Univ., 489 U.S. 468 (1989) ...........16
Ward v. Monroeville, 409 U.S. 57 (1972)......... 22, 23, 24
Weiler v. Marcus & Millichap Real Estate Inv.
Servs., Inc., 22 Cal. App. 5th 970 (2018) .................24
Wellness Int’l Network, Ltd. v. Sharif, 575 U.S.
665 (2015) ................................................................26
CONSTITUTION AND STATUTES
U. S. Const. Amend. VII ........................................ 21, 26
Federal Arbitration Act, 9 U.S.C. §§ 1-16...............passim
LEGISLATIVE MATERIALS
Bills to Make Valid and Enforceable Written
Provisions or Agreements for Arbitration of
Disputes Arising Out of Contracts, Maritime
Transactions, or Commerce Among the States
or Territories or With Foreign Nations: Joint
Hearings on S. 1005 and H.R. 646 Before the
Subcomms. of the Comms. on the Judiciary,
68th Cong. (1924) ....................................................26
S. Rep. No. 536 (May 1924) .........................................25

v
TABLE OF AUTHORITIES—Continued
Page
OTHER AUTHORITIES
Consumer Financial Protection Bureau, Arbitration Study, Report to Congress, Pursuant to
Dodd-Frank Wall Street Reform and Consumer Protection Act §1028(a) (2015) .....................31
Alexander J.S. Colvin, Economic Policy Institute, The Growing Use of Mandatory Arbitration (2018) ...............................................................30
Ian R. Macneil, American Arbitration Law:
Reformation, Nationalization, Internationalization (1992) ............................................................25
James Madison, Federalist 10, The Federalist
Papers (1787) ...........................................................21
Deborah Rothman, Trends in Arbitrator Compensation, DISP. RESOL. MAG. (Spring 2017) ..........24
Imre S. Szalai, Outsourcing Justice: The Rise of
Modern Arbitration Laws in America (2013) .........25
Imre S. Szalai, The Emp. Rts. Advoc. Inst., The
Widespread Use of Workplace Arbitration
Among America’s Top 100 Companies (Mar.
2018) ........................................................................30
Imre S. Szalai, The Prevalence of Consumer Arbitration Agreements by America’s Top Companies, 52 U.C. Davis L. Rev. Online 233
(2019) .......................................................................30

1
INTEREST OF AMICI CURIAE1
Amici are arbitrators, arbitration practitioners,
and scholars whose practice, teaching, and scholarship
focus on arbitration. Amici are concerned that the ruling in this case may undermine the equitable administration of arbitration proceedings, the framework
established by the Federal Arbitration Act (FAA) governing the allocation of power between courts and arbitrators, and the foundation of consent recognized in
and required by the FAA. Amici file this brief to provide additional context regarding the delegation of
threshold arbitrability matters to an arbitrator. It explores several reasons why such a delegation does not
exist in this case.
---------------------------------♦---------------------------------

SUMMARY OF ARGUMENT
The petitioner’s entire argument rests on the
flawed assumption that a clear and unmistakable
delegation of arbitrability matters exists in this
case. However, no such delegation exists for multiple

1

Amici file this brief in their individual capacities, not as
representatives of any organizations with which they are affiliated, and no counsel for a party authored this brief in whole or in
part. Also, no person or entity made a monetary contribution to
the preparation or submission of the brief, except for Professor
Szalai, who used his professorship funds for the printing and filing of this brief. All parties have consented to the filing of this
brief, and letters of consent have been filed with the Court. The
names and titles of amici appear in the appendix.

2
reasons, and the Court should affirm the Fifth Circuit’s
finding that no delegation occurred here.
First, a clear and unmistakable agreement for delegation cannot exist in this case because there is no
agreement at all between the petitioner and respondent. Second, the agreement on which petitioner relies
fails to specify a particular set of arbitration rules that
should apply and, instead, vaguely refers to “arbitration rules” of the American Arbitration Association
(AAA). As explained below, the AAA’s website lists
more than two hundred sets of active and archived arbitration rules, and not all of the AAA rules permit an
arbitrator to resolve arbitrability issues. Third, even if
the purported agreement incorporates by reference a
specific set of arbitration rules, and even if such rules
contain a delegation provision, the contract does not
clearly and unmistakably incorporate that delegation
provision, as opposed to rules governing arbitration
procedure, arbitrator selection, and arbitrator qualification. Fourth, the AAA periodically and unilaterally
amends its own rules. Even if the contract here incorporates by reference a specific set of arbitration rules,
the clear and unmistakable standard cannot be satisfied because AAA arbitration rules can be unilaterally
modified at any time, making the incorporation by reference a moving target and rendering it equivocal and
unclear as a matter of law. Fifth, even assuming the
contract incorporates a delegation provision contained
in AAA rules, a mere incorporation by reference cannot
satisfy the heightened standard of clear and unmistakable evidence because of concerns about impartiality,

3
conflicts of interest, and constitutional problems. Finally, reversing the Fifth Circuit and finding a delegation in this case may negatively impact millions of
small businesses, consumers, and workers.
---------------------------------♦---------------------------------

ARGUMENT
I.

The Court Should Affirm The Fifth Circuit’s Decision Because The Parties Never
Entered Into Any Agreement, And Without
An Agreement, It Is Impossible To Satisfy
The Clear And Unmistakable Delegation
Standard

Two key principles of arbitration law can easily resolve this case. First, “the foundational FAA principle
[is] that arbitration is a matter of consent.” Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662, 684
(2010). Second, as the Court has repeatedly held, “parties may delegate threshold arbitrability questions to
the arbitrator, so long as the parties’ agreement does
so by ‘clear and unmistakable’ evidence.” Henry Schein,
Inc. v. Archer & White Sales, Inc., 139 S. Ct. 524, 530
(2019) (citations omitted). In the landmark case of
First Options of Chicago, Inc. v. Kaplan, 514 U.S. 938
(1995), the Court applied these two principles and addressed a situation that failed to satisfy the clear and
unmistakable standard. First Options is instructive
when addressing the current case.
Like the current case, First Options involved nonsignatories to an arbitration agreement. In First

4
Options, a dispute arose out of the 1987 stock market
crash between First Options of Chicago, Inc., a stock
clearing firm, and three related parties, Manuel
Kaplan, his wife Carol Kaplan, and Manuel’s wholly
owned investment company, MK Investments, Inc.
(MKI). Id. at 940. The critical fact relevant to the current case is that out of these four parties, only MKI and
First Options were parties to an arbitration agreement. Id. at 941. The Court’s opinion addressed
whether Mr. and Mrs. Kaplan, who were non-signatories, were bound to arbitrate, and more particularly,
who resolved whether the Kaplans had to arbitrate.
Turning to the clear and unmistakable delegation
standard, the Court found that “First Options cannot
show that the Kaplans clearly agreed to have the arbitrators decide (i.e., to arbitrate) the question of arbitrability.” Id. at 946. Thus, a court would decide whether
the Kaplans were bound to arbitrate their dispute with
First Options.
In First Options, there was no clear and unmistakable evidence that the Kaplans had agreed to delegate
arbitrability issues to the arbitrator. First, and most
significant to the current case, the Kaplans were not
parties to the arbitration agreement. Id. at 941, 946
(recognizing that the only reason the Kaplans appeared at the arbitration hearing was because Mr.
Kaplan’s wholly owned company was bound to arbitrate pursuant to its workout agreement with First
Options). Second, the Kaplans strongly objected to the
arbitrator’s jurisdiction. Id. at 946. The Kaplans were
simply not signatories to the governing arbitration

5
agreement, and they were not bound to arbitrate arbitrability.
Because the Kaplans had no pre-existing arbitration agreement at all with First Options, id. at 941,
there was only one method for the Kaplans to engage
in a clear and unmistakable delegation of arbitrability
issues to the arbitrator: through a post-dispute submission of the narrow issue of arbitrability. However, there
was no post-dispute submission in First Options:
[While the Kaplans] fil[ed] with the arbitrators a written memorandum objecting to the
arbitrators’ jurisdiction[,] . . . merely arguing
the arbitrability issue to an arbitrator does
not indicate a clear willingness to arbitrate
that issue, i.e., a willingness to be effectively
bound by the arbitrator’s decision on that
point. To the contrary, insofar as the Kaplans
were forcefully objecting to the arbitrators deciding their dispute with First Options, one
naturally would think that they did not want
the arbitrators to have binding authority over
them.
514 U.S. at 946 (emphasis in original).
Just like the Kaplans were not signatories to any
arbitration agreement with First Options, id. at 941,
the respondent here never entered into any arbitration
agreement with petitioner, much less an agreement
that clearly and unmistakably delegates arbitrability
issues to an arbitrator. Petitioner and respondent are
horizontal competitors in the distribution of dental
equipment and appear to have never entered into any

6
contractual relationship with each other. The only arbitration agreement in the record involves a dealer
contract between respondent and a vertical supplier of
dental equipment who is not a party before the Court.
Joint Appendix (JA) 105. Without any binding agreement between the parties, they could not have agreed
to arbitrate anything at all, including questions of arbitrability.
In order to satisfy the heightened clear and unmistakable standard in this case where there is no predispute agreement between the parties, there would
have to be an unreserved, post-dispute submission of
the arbitrability issue to arbitration or a post-dispute
agreement between petitioner and respondent explicitly and unreservedly granting authority to the arbitrator to resolve arbitrability matters. In First Options,
the Kaplans and First Options were never parties to
an arbitration agreement with each other, and the
Kaplans did not unreservedly submit the arbitrability
issue to the arbitrators. Under the circumstances,
there was no clear and unmistakable delegation. 514
U.S. at 941, 946.
Similarly, the petitioner and respondent are not
parties to any contract with each other. As a result, it
is impossible for the parties here to have clearly and
unmistakably agreed that arbitrators shall resolve
threshold arbitrability matters between them. First
Options easily resolves this case.

7
II.

The Contract’s Reference To The AAA,
Without Any Specific Selection Or Incorporation Of Particular AAA Rules, Cannot Satisfy The Clear And Unmistakable
Standard

As explained above, the heightened clear and unmistakable standard cannot be satisfied in this case
because no agreement at all exists between the parties.
However, even assuming that the respondent had entered into an arbitration agreement with the petitioner, a clear and unmistakable delegation still does
not exist.
Although the arbitration agreement relied on by
petitioner (the “Arbitration Agreement”) provides for
arbitration “in accordance with the arbitration rules of
the American Arbitration Association,” the petitioner’s
purported Arbitration Agreement fails to identify and
incorporate by reference a specific set of rules administered by the AAA. JA 114. This lack of specificity is
fatal to the petitioner’s claim that the Arbitration
Agreement satisfies the clear and unmistakable standard for delegation. As explained below, the AAA’s website has more than two hundred sets of active and
archived arbitration rules, and not all the AAA rules
permit an arbitrator to resolve arbitrability issues.
The Arbitration Agreement’s reference to unspecified “arbitration rules” is vague and problematic because the AAA’s website currently lists fifty-six (56)
sets of “active” rules and one hundred sixty-two (162)

8
sets of “archived” rules.2 Out of this entire universe of
more than two hundred AAA rules, it is critical to recognize that while some AAA rules permit an arbitrator
to determine threshold arbitrability issues, other AAA
rules are silent and do not grant that power to the arbitrator. Because the Arbitration Agreement fails to
identify and select a particular set of AAA rules, there
is uncertainty or ambiguity regarding which AAA
rules are supposed to apply to the complex antitrust
claims in this case.
The Joint Appendix sets forth two sets of AAA
rules: (1) the AAA’s “Commercial Arbitration Rules and
Mediation Procedures” (the “Commercial Rules”); and
(2) the AAA’s “Procedures for Large, Complex Commercial Disputes” (the “Complex Rules”). JA 117-173. Out
of all the AAA rules, these two sets of rules are likely
candidates to govern the underlying antitrust dispute
in this case.3 However, there is a critical difference
2

https://www.adr.org/active-rules (last visited Oct. 7, 2020);
https://www.adr.org/ArchiveRules (last visited Oct. 7, 2020).
3
Some AAA rules are designed for particular disputes or industries, such as disputes involving the wireless industry or
healthcare industry. See, e.g., https://www.adr.org/active-rules
(last visited Oct. 7, 2020). These specialized AAA rules for other
industries are likely inapplicable to the complex antitrust claims
in the current case. However, because of the foundational principle that arbitration is a matter of consent, Lamps Plus, Inc. v.
Varela, 139 S. Ct. 1407, 1416 (2019), parties theoretically could
choose to arbitrate pursuant to rules designed for another industry. With the contract’s vague reference to AAA “arbitration
rules,” it is not clear which rules are applicable to the current
case, but the two sets of rules cited in the Joint Appendix are
likely candidates.

9
between these two sets of rules for the purpose of this
case. The Commercial Rules permit an arbitrator to resolve threshold arbitrability issues. JA 135. However,
the Complex Rules do not grant such a power to the
arbitrator. JA 158-161. By failing to specify which set
of AAA rules governs, the Arbitration Agreement cannot satisfy the clear and unmistakable standard regarding delegation.
The petitioner may try to argue that the parties to
the contract intended the contract’s general reference
to AAA rules to refer clearly and unmistakably to the
AAA’s Commercial Rules. Petitioner’s argument is undermined by what the AAA’s website reveals. If a visitor to the AAA’s website has a large, complex antitrust
dispute and reasonably examines the Complex Rules
as the applicable set of rules, the visitor would have no
notice at all that an arbitrator could resolve threshold
arbitrability issues. This particular set of rules simply
does not purport to grant such powers to an arbitrator.
JA 158-161. Although the Joint Appendix presents the
AAA’s Commercial Rules and the AAA’s Complex Rules
together as a unit, the AAA’s website sets forth the
Complex Rules as a distinct set of rules in a separate
PDF file and unconnected to the Commercial Rules.4 In
4

https://www.adr.org/active-rules (last visited Oct. 7, 2020).
The AAA’s Complex Rules make only one reference to the Commercial Rules: if the parties cannot agree on the method of appointing arbitrators, arbitrators shall be appointed in the manner
provided in the Commercial Rules. See Rule L-2, JA 159 (“The
AAA shall appoint arbitrator(s) as agreed by the parties. If they
are unable to agree on a method of appointment, the AAA shall
appoint arbitrators from the Large, Complex Commercial Case

10
sum, the contract’s poorly drafted and open-ended reference to AAA “arbitration rules,” JA 114, without

Panel, in the manner provided in the regular [Commercial
Rules].”). Because the AAA’s Complex Rules do not refer at all to
the AAA’s Commercial Rules, except for this one particular contingency when the parties cannot agree on the method of appointment of arbitrators, which may not even occur in any given case,
a textual, literal interpretation suggests that the AAA’s Complex
Rules stand alone as a distinct set of arbitral rules. These particular rules do not permit an arbitrator to resolve threshold arbitrability matters. JA 158-161. A visitor to the AAA’s website who
has a complex antitrust dispute may only see these Complex
Rules and have no expectation at all that an arbitrator would resolve threshold arbitrability matters. Furthermore, if a visitor
with a complex antitrust dispute visits the AAA’s website and instead first examines the Commercial Rules, the visitor would still
have no expectation that an arbitrator would resolve threshold
arbitrability matters. The Commercial Rules state that the AAA’s
Complex Rules govern disputes of $500,000 or more. See Rule
R-1(c), JA 132. In such situations, the AAA’s Complex Rules “shall
be applied . . . in addition to any other portion of these [Commercial Rules] that is not in conflict with the [Complex Rules].” Id.
(emphasis added). One can argue that there is a conflict between
these two sets of rules because the Commercial Rules grant the
arbitrator the power to resolve threshold arbitrability issues, JA
135, while the Complex Rules do not. JA 158-161. As a result of
this conflict, an arbitrator does not have the power to resolve
threshold arbitrability issues for large, complex disputes of
$500,000 or more. To summarize, a textual, literal analysis of the
Complex Rules excludes application of the Commercial Rules, except for one special circumstance involving the appointment of the
arbitrator. Although the text of the Commercial Rules attempts
to combine the two sets of rules, there is, at best, an ambiguity
whether the combination of these two sets includes the power of
an arbitrator to resolve threshold arbitrability issues. With such
poor drafting by the AAA of its own rules, there is no clear and
unmistakable delegation in this case.

11
specifying any particular AAA rules, cannot satisfy the
clear and unmistakable standard for delegation.
III.

The Purported Arbitration Agreement’s
Text Does Not Clearly And Unmistakably
Incorporate By Reference A Delegation
Provision

The text of the alleged Arbitration Agreement does
not, for additional, independent reasons, clearly and
unmistakably delegate arbitrability questions to an arbitrator. Even if the Arbitration Agreement identified,
and purported to incorporate by reference, a specific
set of AAA rules containing a delegation agreement, at
best the Arbitration Agreement’s text remains equivocal and otherwise unclear about party intent to arbitrate arbitrability.
A. The Clear And Unmistakable Delegation Rule Requires The Court To Determine Independently, And Without
Regard To State Law, Whether The Parties Clearly And Unmistakably Consented To Arbitrate Arbitrability
The question whether the parties “clearly and unmistakably” agreed to arbitrate arbitrability is a federal law “interpretive” rule. Lamps Plus, Inc. v. Varela,
139 S. Ct. 1407, 1415-17, 1418-19 (2019); First Options,
514 U.S. at 944-45; Howsam v. Dean Witter Reynolds,
Inc., 537 U.S. 79, 83-84 (2002). Ordinarily, the interpretation of an arbitration agreement presents a state law

12
question, but the “clear and unmistakable” delegation
rule “qualifi[es]” state law and displaces it to the extent
it is inconsistent with the purposes and objectives of
the FAA. Lamps Plus, 139 S. Ct. at 1415, 1416-17; First
Options, 514 U.S. at 944-45.
The purposes and objectives of the FAA’s clear and
unmistakable delegation rule are to ensure that parties are not coerced into arbitrating an issue that they
reasonably thought would be reserved for court determination. This Court “will not conclude that” parties
agree to arbitrate arbitrability “based on ‘silence or
ambiguity’ in their agreement, because ‘doing so might
too often force unwilling parties to arbitrate a matter
they reasonably would have thought a judge, not an
arbitrator, would decide.’ ” Lamps Plus, 139 S. Ct. at
1416-17 (quoting First Options, 514 U.S. at 945; citing
Howsam, 537 U.S. at 83-84; emphasis deleted). The
Court in Howsam explored some reasons for the clear
and unmistakable delegation rule:
[The clear and unmistakable delegation rule
applies] in the kind of narrow circumstance
where contracting parties would likely have
expected a court to have decided the gateway
matter, where they are not likely to have
thought that they had agreed that an arbitrator would do so, and, consequently, where reference of the gateway dispute to the court
avoids the risk of forcing parties to arbitrate
a matter that they may well not have agreed
to arbitrate.
537 U.S. at 83-84.

13
Implementing the clear and unmistakable delegation rule consistent with its purposes and objectives requires courts to determine independently, as a matter
of federal law, whether such clear and unmistakable
evidence exists. That determination should not turn on
the vagaries of whatever body of state law contract interpretation rules may apply, but on whether there is
clear and unmistakable evidence that the parties
meaningfully, knowingly, and deliberately consented to
arbitrate arbitrability.
B. The Text Of The Purported Arbitration
Agreement Does Not Clearly And Unmistakably Incorporate By Reference
A Delegation Agreement
The petitioner’s purported Arbitration Agreement
provides, in pertinent part, that “[a]ny dispute arising
under or related to this Agreement (except for actions
seeking injunctive relief and disputes related to trademarks, trade secrets or other intellectual property of
Pelton & Crane) shall be resolved by binding arbitration in accordance with the arbitration rules of the
American Arbitration Association.” JA 114.
The first phrase of that sentence defines the scope
of the arbitration agreement—that is, what disputes
the parties agreed to arbitrate. That phrase does not
clearly and unmistakably evidence an intent to arbitrate disputes about arbitrability because it could be
reasonably construed to indicate the parties’ intent to
arbitrate a broad range of merits disputes arising out

14
of or relating to the parties’ agreement, but not arbitrability disputes. The Fifth Circuit’s decision underscored this point by basing its clear and unmistakable
delegation decision on AAA rules and not on the scope
provision of the Arbitration Agreement. See Archer &
White Sales, Inc. v. Henry Schein, Inc., 935 F.3d 274,
280 (5th Cir. 2019).
The balance of the Arbitration Agreement—the
parties’ undertaking to arbitrate “in accordance with
the arbitration rules of the American Arbitration Association”—likewise does not evidence a clear and unmistakable intent to arbitrate arbitrability. The
Arbitration Agreement certainly demonstrates that
they considered carefully what disputes should be submitted to arbitration, for they defined those broadly,
and by way of the carveout, expressly excluded certain
ones from coverage.
But the purported Arbitration Agreement, apart
from a requirement that covered disputes be arbitrated “in accordance with the arbitration rules of the
[AAA],” is silent on whether the parties agreed to arbitrate arbitrability. Assuming (contrary to fact) (see
Point II) that all AAA rules contain a rule requiring
the arbitration of arbitrability, the provision requiring
arbitration “in accordance with” AAA rules does not
clearly and unmistakably incorporate by reference any
arbitration rule delegating arbitrability to arbitration.
The Arbitration Agreement’s undertaking to arbitrate “in accordance with” AAA rules can be reasonably
interpreted to mean that the parties agreed to

15
arbitrate “in accordance with” AAA rules governing arbitration procedure, arbitrator selection, and arbitrator qualifications, not rules that would expand the
scope of the arbitration agreement.
That is especially so because the text of the Arbitration Agreement quite carefully and deliberately defines the universe of disputes that are to be submitted
to arbitration—those “arising under or related to” the
parties’ agreement, save for certain disputes that are
excluded from arbitration. Arbitrating “in accordance
with [AAA] rules” may mean that arbitration should
proceed “in accordance with” AAA rules governing procedural and arbitrator-selection-related rules, but it
does not necessarily mean that the parties must have
intended to make part of the Arbitration Agreement a
AAA rule that would expand the scope of that Agreement.
There is at least one other reasonable interpretation of the undertaking to arbitrate “in accordance
with” AAA rules that does not require the arbitration
of arbitrability. The undertaking can reasonably be interpreted to mean that the AAA rules apply only to arbitration of disputes that fall within the arbitration
agreement’s scope and are not excluded by the carveout.
Under this interpretation, the parties are not
deemed to incorporate a delegation contained in provider rules because: (a) the provider rules do not apply
at all to disputes that are outside the scope of the Arbitration Agreement; and (b) the delegation provision

16
of the provider rules does not apply to disputes that
are within (and not excluded from) the scope of the Arbitration Agreement.
The delegation provision would not apply to disputes that are within (and not excluded from) the Arbitration Agreement (category (b), above) because to
determine whether the delegation provision applied at
all a court would have to resolve a fundamental arbitrability dispute, which is the one at issue in this case:
whether the dispute was within the scope of the Arbitration Agreement. Once a court decides that a dispute
is at least arguably within the scope of an arbitration
agreement, then there is no scope issue left for an arbitrator to decide. See, e.g., Mastrobuono v. Shearson
Lehman Hutton, Inc., 514 U.S. 52, 62 (1995) (“[W]hen a
court interprets . . . [scope] provisions in an agreement
covered by the FAA, ‘due regard must be given to the
federal policy favoring arbitration, and ambiguities as
to the scope of the arbitration clause itself resolved in
favor of arbitration.’ ” (quoting Volt Info. Scis., Inc. v.
Bd. of Trustees of Leland Stanford Junior Univ., 489
U.S. 468, 476 (1989))); Moses H. Cone Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 24-25 (1983).
That means that under this interpretation of the
Arbitration Agreement, the parties have not clearly
and unmistakably delegated arbitrability questions to
the arbitrator. Rule 7(a) of the AAA’s Commercial
Rules purports to delegate arbitrability disputes about
the scope of an arbitration agreement, as well as other
arbitrability disputes, such as ones about the enforceability of an arbitration agreement. JA 135.

17
But under this interpretation of the Arbitration
Agreement, it would be unreasonable to conclude that
the parties agreed to incorporate Rule 7(a) into their
Agreement, even though it would be reasonable to conclude that the parties agreed to incorporate by reference other AAA rules concerning arbitration procedure
and arbitrator selection and qualification. At best, the
parties might be deemed to incorporate Rule 7(a), but
only to the extent it relates to issues other than the
scope of the Arbitration Agreement, such as the enforceability of the Arbitration Agreement.
This interpretation of the Arbitration Agreement
is very similar to the one the Fifth Circuit adopted,
save in one respect. The Fifth Circuit’s interpretation
posited that a delegation provision contained in a particular set of AAA rules applied to disputes within the
scope provision of the agreement but not disputes that
are excluded from arbitration by the carveout. Archer,
935 F.3d at 281. Amici’s interpretation is that the parties did not clearly and unmistakably agree to the incorporation of Rule 7(a) irrespective of whether the
dispute falls within or without the Arbitration Agreement.
This interpretation underscores that the parties
did not clearly and unmistakably incorporate by reference Rule 7(a). Even if the purported Arbitration
Agreement might be construed to incorporate by reference Rule 7(a) to the extent it requires arbitration of
arbitrability disputes concerning enforceability of the
Arbitration Agreement, the Arbitration Agreement’s
incorporation by reference of Rule 7(a) is, at best, unclear and equivocal, not clear and unmistakable. Did

18
the parties intend not to incorporate it by reference at
all? To incorporate it in part only, except for scope issues? To incorporate it in full? There are no clear and
unmistakable answers to these questions.
IV.

The Changing Nature Of The AAA Rules
Prevents A Clear And Unmistakable Delegation In This Case

Even if a contract references a specific set of outside arbitration rules, which is not the situation here,
a clear and unmistakable delegation cannot exist if
such rules can be unilaterally changed at any time.
The AAA periodically and unilaterally amends its
rules. For example, it appears that the AAA has at
least five versions, and possibly more, of its Commercial Rules, dated 2003, 2005, 2007, 2009, and 2013.5
The AAA’s website for active rules lists a date of April
7, 2017, for the AAA’s Complex Rules, and the text of
these rules on the AAA’s website further mentions that
these rules were amended on September 1, 2007.6 On
the page for archived rules, one can see several other
5

At least four older versions appear on the AAA’s webpage
for its archived rules, https://www.adr.org/ArchiveRules (last visited Oct. 7, 2020), while a fifth and current version appears on the
AAA’s webpage for active rules, https://www.adr.org/active-rules
(last visited Oct. 7, 2020). The webpage for archived rules also
contains three other sets of rules, titled “Commercial Dispute
Resolution Procedures,” dated 2000, 2002, and 2003. It appears
these rules may be precursors to the Commercial Rules. Thus, the
AAA’s Commercial Rules may have gone through at least eight
different versions since 2000.
6
https://www.adr.org/active-rules (last visited Oct. 7, 2020).

19
examples of AAA rules that have been amended over
time. It appears that the AAA applies the most recent
version of rules in existence at the time a dispute
arises in the future, instead of the version of the rules
in force when a contract is originally made.7
The changing nature of AAA rules is problematic
for the petitioner’s arguments that the purported Arbitration Agreement at issue clearly and unmistakably
delegates arbitrability issues to the arbitrator. The
contract at issue is dated October 4, 2007, JA 105, but
if a dispute arises several years later, the AAA may
have unilaterally amended the governing rules by that
future time. Even if a set of rules currently allows for
an arbitrator to resolve threshold arbitrability issues,
the AAA may unilaterally amend these terms in the
future and no longer provide for such a delegation. A
contract that incorporates by reference a shifting, everchanging set of arbitration rules cannot demonstrate
by clear and unmistakable evidence that the parties
intended to delegate arbitrability issues to an arbitrator. A current arbitral rule allowing for delegation may
not even be in existence years later when a dispute
eventually arises. Moreover, as explained in the prior
section, the purported Arbitration Agreement makes
no reference at all to a particular set of AAA rules, and
even more problematic, the petitioner and respondent
7

See, e.g., Important Notice to the Commercial Arbitration
Rules and Mediation Procedures (“These rules and any amendment of them shall apply in the form in effect at the time the administrative filing requirements are met for a demand for
arbitration or submission agreement received by the AAA.”), JA
118.

20
never entered into any contractual relationship at all.
Even if they did, the Arbitration Agreement does not
clearly and unmistakably incorporate by reference a
delegation agreement. As a result, it is impossible for
the parties here to have agreed, through clear and unmistakable evidence, that arbitrators shall resolve
threshold arbitrability matters between them.
V.

Because Of Concerns About Impartiality,
Conflicts Of Interest, And The Constitutional Right To A Jury Trial, Mere Incorporation By Reference Of Outside Arbitration
Rules Cannot Satisfy The Heightened
Standard Of Clear And Unmistakable Evidence

As explained above, the petitioner cannot demonstrate a clear and unmistakable delegation agreement
with respondent because there is no agreement between them at all. Moreover, the alleged Arbitration
Agreement fails to select any particular AAA rules, the
AAA can unilaterally change its rules at any time, and,
in any event, there is no clear and unmistakable incorporation of a delegation agreement. As a result, the
contract cannot satisfy the heightened standard of
clear and unmistakable evidence. However, even if the
Arbitration Agreement incorporated by reference a
particular set of AAA rules frozen in time, an incorporation by reference cannot satisfy the heightened
standard of the clear and unmistakable delegation rule
because of concerns about impartiality, conflicts of interest, and constitutional problems concerning the

21
Seventh Amendment to the U.S. Constitution and the
interrelationship between section 4 of the FAA and the
Seventh Amendment.
A. Concerns About Impartiality And Conflicts Of Interest
“No man is allowed to be a judge in his
own cause; because his interest would
certainly bias his judgment, and, not improbably, corrupt his integrity.” James
Madison, Federalist No. 10.
The heightened standard of clear and unmistakable evidence helps alleviate serious concerns about
conflicts of interest and fairness in the arbitration process. There is a fundamental conflict of interest inherent in allowing an arbitrator to decide a gateway
question of arbitrability because the arbitrator has a
direct economic interest in the outcome of this determination. Arbitrators are typically paid by the hour,
and an arbitrator’s determination that the underlying
case is not arbitrable means the arbitrator will likely
lose substantial fees by not hearing the underlying
case. The text of the FAA avoids this conflict of interest
by providing for a court to make threshold determinations whether parties are obligated to arbitrate certain
disputes. 9 U.S.C. § 4. While a judge does not have a
direct financial interest in the outcome of an arbitrability determination, an arbitrator does have a direct
financial interest in resolving an arbitrability dispute
in favor of arbitration.

22
In several prior cases, the Court has upheld the
disqualification of judges who had a conflict of interest
based on financial motives comparable to the motives
of an arbitrator ruling on arbitrability. For example, in
Tumey v. Ohio, 273 U.S. 510 (1927), a mayor served as
a judge for a “liquor court” during Prohibition, and for
his services as a judge, the mayor-judge was paid from
funds derived from fines he levied upon convictions. Id.
at 520. The mayor-judge, who received $12 for convicting the defendant, had a direct financial interest in
convicting people for unlawful possession of liquor; he
would not receive such funds if he decided to acquit a
defendant. Id. at 520, 523. The fines imposed in Tumey
also funded the village’s general treasury. Id. at 52223. The Court mandated disqualification of the mayorjudge under these circumstances “both because of the
[mayor-judge’s] direct pecuniary interest in the outcome, and because of his official motive to convict . . .
to help the financial needs of the village.” Id. at 535. It
violates fundamental fairness in a dispute to have an
adjudicator with a direct economic interest in reaching
a certain outcome, such as the mayor-judge in Tumey
who pocketed fees for every decision to convict or an
arbitrator who stands to receive significant fees for
finding that the parties are obligated to arbitrate.
While Tumey involved an adjudicator with a direct
financial interest in the outcome, the Court has also
disqualified adjudicators with indirect financial interests as well. For example, in the case of Ward v. Monroeville, 409 U.S. 57 (1972), a mayor who was in charge
of the financial affairs of a village also served in a

23
judicial capacity with respect to traffic offenses. A significant part of the village’s funding came from the
fines imposed by the mayor through this traffic court.
Id. at 58. While the mayor-judge in Tumey received a
direct financial benefit from each decision to convict,
the mayor-judge in Ward had an indirect financial interest. Although the $50 fines in Ward went to the village’s general treasury, not the mayor’s personal
pocket, the Court still found that the mayor-judge in
Ward could not be impartial and had to be disqualified.
Id. at 57, 61-62. The mayor-judge faced a “possible
temptation” arising from his “executive responsibilities for village finances.” Id. at 60 (citation omitted).
As demonstrated by Tumey and Ward, the Court
has been vigilant in safeguarding the neutrality and
impartiality of various tribunals. Similarly, in Gibson
v. Berryhill, 411 U.S. 564 (1973), the Court upheld the
disqualification of a board of optometrists from presiding over a hearing which could revoke the licenses of
competing optometrists. Such a hearing could not be
fair and impartial because the optometrists serving in
a judicial capacity had a personal financial stake in the
outcome of the case involving competing optometrists.
Id. at 579. As recognized by the Court, “[i]t is sufficiently clear from our cases that those with substantial
pecuniary interest in legal proceedings should not adjudicate these disputes.” Id. (citing Tumey and Ward).
In Tumey, Ward, and Gibson, the Court found that an
adjudicator’s financial interest, both direct and indirect, in the outcome of his or her decision-making

24
prevents the adjudicator from being fair and impartial
and provides an immediate basis for disqualification.
Similarly, there is an understandable and indisputable financial interest for the AAA and its arbitrators to rule in favor of arbitration when resolving
threshold arbitrability matters. Ward involved a $50
indirect financial incentive, while Tumey involved a
$12 direct financial incentive, and these amounts pale
in comparison to the hourly rates AAA arbitrators can
earn for ruling in favor of arbitrability and continuing
to hear the merits of a dispute. Weiler v. Marcus & Millichap Real Estate Inv. Servs., Inc., 22 Cal. App. 5th
970, 975 (2018) (three-person panel of AAA arbitrators
charged $1,450 per hour); Monfared v. St. Luke’s Univ.
Health Network, 2016 WL 6525411, at *1 (E.D. Pa. Nov.
2, 2016) (list of AAA arbitrators set forth rates ranging
from $250 and $550 per hour); Deborah Rothman,
Trends in Arbitrator Compensation, DISP. RESOL. MAG.
8-11 (Spring 2017) (AAA arbitrators may earn from
$300 per hour to more than $1,000 per hour). Because
of such a clear conflict of interest with an arbitrator
ruling on his or her own jurisdiction, there is a reasonable expectation that a judge or jury, not an arbitrator,
should resolve threshold arbitrability matters, as
demonstrated by the text of the FAA. 9 U.S.C. § 4. However, this reasonable expectation can be reversed upon
the heightened showing of the clear and unmistakable
standard for delegation, which helps alleviate these
concerns about an arbitrator’s direct pecuniary interest in resolving arbitrability matters in favor of arbitration.

25
B. Constitutional Concerns About A Jury
Trial
Section 4 of the FAA provides, without any exception, that a court determines whether the parties have
a binding agreement to arbitrate a particular dispute.8
Section 4 preserves the right to a jury trial for this determination about arbitrability, and the drafters of the
FAA inserted this provision regarding jury trials because of constitutional concerns. S. Rep. No. 536 (May
8

Textually, section 4 does not allow for delegation of arbitrability matters to an arbitrator. But, as succinctly observed by the
Court, “that ship has sailed.” Henry Schein, Inc. v. Archer & White
Sales, Inc., 139 S. Ct. 524, 530 (2019). Unfortunately, the ship has
sailed with respect to several arbitration doctrines developed by
the Court over the years. The Court’s interpretations of the FAA
are no longer consistent with the text of the FAA in several critical ways. For example, despite the text of the FAA limiting its
coverage to contractual disputes, 9 U.S.C. § 2 (FAA’s coverage is
limited to written provisions in a contract “to settle by arbitration
a controversy thereafter arising out of such contract”), the Court
has incorrectly expanded the FAA’s coverage to virtually all types
of claims, such as statutory claims or tort claims which can be
asserted without reference to a contract. See, e.g., Gilmer v. Interstate/Johnson Lane Corp., 500 U.S. 20 (1991) (FAA covers statutory civil rights claims); Kindred Nursing Centers Ltd. P’ship v.
Clark, 137 S. Ct. 1421 (2017) (applying the FAA to wrongful death
claims involving a nursing home). If one engages in a textual
analysis of the FAA, the antitrust claims in this case, which involve allegations of price-fixing and a group boycott, do not even
fall within the scope of the FAA’s coverage. Also, there is much
evidence that the FAA was never intended to apply to employment disputes or in state court. See generally Imre S. Szalai, Outsourcing Justice: The Rise of Modern Arbitration Laws in America
(2013); Ian R. Macneil, American Arbitration Law: Reformation,
Nationalization, Internationalization (1992). Many ships have
sailed when it comes to the text of the FAA.

26
1924) (“Section 4 provides a simple method for securing the performance of an arbitration agreement. The
aggrieved party may apply to the proper district court
on five days’ notice and the court will order the party
to proceed. The constitutional right to a jury trial is adequately safeguarded.”); see also Bills to Make Valid
and Enforceable Written Provisions or Agreements for
Arbitration of Disputes Arising Out of Contracts, Maritime Transactions, or Commerce Among the States or
Territories or With Foreign Nations: Joint Hearings on
S. 1005 and H.R. 646 Before the Subcomms. of the
Comms. on the Judiciary, 68th Cong. 17 (1924) (Section
4 provides for a jury trial to satisfy constitutional concerns regarding the resolution of threshold arbitrability issues, such as whether a party authorized the
arbitration agreement to be signed, whether the arbitration agreement is valid, or whether the arbitration
agreement was properly delivered). The FAA’s drafters
were troubled by potential Seventh Amendment violations arising from a court’s order wrongfully forcing
non-consenting parties to arbitrate whether they
agreed to arbitrate. To help ensure that no one is
stripped of their Seventh Amendment rights, section 4
of the FAA guarantees a jury trial for arbitrability issues. Rigorous enforcement of the clear and unmistakable standard will help ensure all constitutional rights
waivers are knowing, informed, and intentional. Cf.
Wellness Int’l Network, Ltd. v. Sharif, 575 U.S. 665
(2015) (waiver of the right to Article III adjudication
must be “knowing and voluntary”).

27
VI.

The Court Should Impose A Heightened
Clear And Unmistakable Standard In
Cases Where The Parties Allegedly Incorporate By Reference A Delegation Provision Contained In Provider Rules

Imposing and maintaining a heightened standard
of clear and unmistakable evidence regarding a delegation helps alleviate all of the previously discussed
concerns about unclear and equivocal Arbitration
Agreement terms, improper financial motives, conflicts
of interest, and one’s constitutional right to a jury trial.
The clear and unmistakable rule, as articulated by
First Options, demands the kind of clear and unmistakable evidence of intent that requires parties to arbitrate arbitrability only if they have consciously and
deliberately opted out of the default rule that courts
decide arbitrability questions. Ordinarily that means
courts should not find clear and unmistakable evidence of delegation unless the parties to a contract expressly provided for delegation in the body of their
agreement. See, e.g., Rent-A-Center, West, Inc. v. Jackson, 561 U.S. 63, 65-66 (2010) (clear and unmistakable
delegation provision set forth in body of parties’ agreement).
The Court should not allow a contract’s mere incorporation by reference of outside arbitral rules to
satisfy the clear and unmistakable standard. The
Court should adopt a bright-line rule in this case to be
certain of the parties’ intent: the parties’ contract must
itself contain a clear and unmistakable delegation

28
clause explicitly recognizing that an arbitrator has the
power to rule on threshold arbitrability issues.
Adopting such a bright-line standard would prevent years of future, continued litigation regarding the
FAA and delegation issues. This complex antitrust
case was filed in 2012, and the parties have been litigating at every level of the federal judiciary whether
they are obligated to arbitrate. Such prolonged litigation undercuts the values of arbitration as a potentially efficient, cost-effective method of dispute
resolution. Without a clear, bright-line rule established
by this case, the Court is likely to see future cases, perhaps a series of sequels, Henry Schein III, IV, and V,
where parties dispute several issues, such as: whether
an incorporation by reference of outside arbitral rules
can satisfy the clear and unmistakable standard;
whether the clear and unmistakable standard can be
satisfied in connection with non-signatories; and
whether arbitral rules that can be unilaterally
amended at any time satisfy this heightened standard.
Even in the absence of a bright-line rule for which
amici advocate, the Court should emphasize and require that lower courts exercise great care when applying the clear and unmistakable rule in a situation
where an arbitration agreement purports to incorporate by reference arbitration provider rules containing
a delegation provision. First Options recognized that
parties “might not focus” on the “arcane” question of
who gets to decide arbitrability questions “or upon the
significance of having arbitrators decide the scope of
their own powers.” First Options, 514 U.S. at 945. The

29
danger that “unwilling parties” will be forced into arbitrating arbitrability disputes they did not clearly and
unmistakably intend to arbitrate is particularly acute
when a court determines that parties incorporated by
reference a delegation provision contained in arbitral
rules.
A reasonable person could, with or without reviewing arbitral rules, simply and reasonably assume that
those rules are what their title suggests: arbitration
rules governing arbitration procedure, arbitrator selection, and arbitrator qualification. A reasonable person could, with or without reviewing the rules, further
conclude that the rules would not purport to expand
the scope of the arbitration agreement beyond what
the parties had already—quite carefully and deliberately—agreed it would be.
If the Court does not adopt the preferred, brightline rule discussed above, it should require that the
parties’ arbitration agreement itself (not the allegedly
incorporated rules) provide “clear and unmistakable
evidence” that the parties intended to incorporate all
of the rules as part of their agreement, including any
rules purporting to form a separate, antecedent delegation agreement.

30
VII.

Reversing The Fifth Circuit And Finding
A Delegation Here May Negatively Impact Millions Of Unsophisticated Business Owners, Consumers, And Workers

Sophisticated parties may perhaps understand
the “arcane” issue of who decides threshold arbitrability matters. First Options, 514 U.S. at 945. Or if sophisticated parties cannot understand, they may have
access to specialized arbitration counsel who could explain this hypertechnical issue of arbitration law. However, the ruling in this case may impact hundreds of
millions of arbitration agreements involving unsophisticated small businesses, consumers, and employees.9
Treating the clear and unmistakable evidence
standard as satisfied because of a contract’s mere incorporation by reference of outside arbitration rules
would be problematic for small businesses, consumers,
and employees. There is evidence that an average person may not even be aware of or understand the significance of arbitration clauses in his or her contracts.
9

Imre S. Szalai, The Prevalence of Consumer Arbitration
Agreements by America’s Top Companies, 52 U.C. Davis L. Rev.
Online 233 (2019) (81% of America’s largest companies have used
arbitration agreements for consumer transactions, and by conservative estimates, there are more than 826 million consumer
arbitration agreements in America); Imre S. Szalai, The Emp.
Rts. Advoc. Inst., The Widespread Use of Workplace Arbitration
Among America’s Top 100 Companies (Mar. 2018) (80% of America’s largest companies have used arbitration agreements for employment disputes); Alexander J.S. Colvin, Economic Policy
Institute, The Growing Use of Mandatory Arbitration (2018)
(more than 60 million American workers are bound by arbitration
agreements).

31
Consumer Financial Protection Bureau, Arbitration
Study, Report to Congress, Pursuant to Dodd-Frank
Wall Street Reform and Consumer Protection Act
§1028(a), at § 1.4.2 (2015) (“Consumers are generally
unaware of whether their credit card contracts include
arbitration clauses. Consumers with such clauses in
their agreements generally either do not know
whether they can sue in court or wrongly believe that
they can do so.”); id. at § 3.4.3 (finding that 93% of consumers with arbitration agreements either do not
know whether they can sue in court or wrongly believe
they can do so). If an average person is unlikely to understand the significance of a basic arbitration provision, how much less would a person understand an
antecedent delegation agreement to arbitrate buried
in a separate set of complex arbitration rules? It would
be comical fiction piled on top of science fiction to conclude that an unsophisticated consumer or employee
clearly and unmistakably agreed to arbitrate the issue
of whether they agreed to arbitrate, in an agreement
they did not sign, through a contract’s mere incorporation by reference of an arbitration provider’s rules
found outside of the contract. Cf. Allstate Ins. Co. v. Toll
Bros., Inc., 171 F. Supp. 3d 417, 429 (E.D. Pa. 2016) (to
conclude that an agreement’s incorporation by reference of outside rules is clear and unmistakable evidence that the parties agreed to arbitrate arbitrability
would be tantamount to “tak[ing] a good joke too far.”
(citation omitted)). Such a ruling would be contrary to
the expectations of a reasonable small or midsize business owner, or an average person. First Options, 514
U.S. at 945 (“A party often might not focus upon that

32
question [of who decides threshold arbitrability matters.]”).
If the courthouse door is easily shut in such a manner, through a fantastical assumption that a small or
midsize business owner, consumer, or employee agreed
to arbitrate threshold arbitrability matters because
changeable arbitral rules found outside of a contract
say so, such a ruling could have an adverse impact on
the administration of justice. Sensible businesses may
reject arbitration as their safest, most cost efficient decision. Unsophisticated parties who never consented to
arbitrate may be forced to arbitrate whether they
agreed to arbitrate. Such a Kafkaesque ruling built on
the foundation of arcane legal fictions weakens public
trust in the courts and in the arbitration process itself.
---------------------------------♦---------------------------------

CONCLUSION
The petitioner’s merits brief rests on a deeply
flawed assumption. There is no clear and unmistakable delegation of arbitrability matters with the facts of
this case. However, the petitioner attempts to manufacture a clear and unmistakable agreement to delegate by relying on someone else’s contract to which
petitioner is not even a party and by relying on two
sets of ambiguous AAA rules that are not even mentioned in that contract, rules which can, without notice,
be unilaterally changed at any time.
The facts of this case demonstrate an ambiguous,
poorly drafted arbitration agreement signed by parties

33
other than those before this Court. One must leap
through several hurdles to concoct a strained argument that the petitioner and respondent agreed with
each other, through clear and unmistakable evidence,
to arbitrate arbitrability. No such clear and unmistakable agreement exists in this case. Cf. United Steelworkers of Am. v. Warrior & Gulf Nav. Co., 363 U.S. 574,
587 (1960) (“The terms of the [arbitration] agreement
are not to be strained to discover [the arbitrator’s
power]. They must be clear and unmistakable to oust
the jurisdiction of the courts.” (citation omitted)).
Amici respectfully ask the Court to affirm the Fifth
Circuit’s decision finding no delegation occurred here.
Respectfully submitted,
IMRE STEPHEN SZALAI
Counsel of Record

